UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6499
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
BERNARD WEITERS, JR.,
Defendant - Appellant.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. David C. Norton, District Judge. (2:09-cr-00987-DCN-l)
Submitted: August 20, 2020

Decided: August 25, 2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Bernard Weiters, Jr., Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Bernard Weiters, Jr., appeals the district court’s order denying his motion, filed
pursuant to the First Step Act of 2018, Pub. L. No. 115-391,132 Stat. 5194, for a reduction
in his aggregate 420-month sentence. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. United States v.
Weiters, No. 2:09-cr-00987-DCN-l (D.S.C. Apr. 2, 2020).

We dispense with oral

argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

2

1

2:09-cr-00987-DCN

Date Filed 04/02/20

Entry Number 189

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
UNITED STATES OF AMERICA,

)

)
vs.

)
)
)
)
)

BERNARD WEITERS, JR.,.
Defendant.

No. 2:09-cr-00987-DCN
ORDER

The following matter is before the court is on Bernard Weiters, Jr.’s (“defendant”)
pro se motion to reduce his sentence pursuant to the First Step Act of 2018, Formerly
Incarcerated Reenter Society Transformed Safely Transitioning Every Person Act, Pub.
L. No. 115-391, 132 Stat. 5194 (2018) (“First Step Act”). ECF No. 184, as supplemented
by ECF Nos. 185-86.
On February 7, 2020, defendant was advised by the Federal Public Defender not
to continue pursuing this instant motion because he is not currently eligible for relief
under the First Step Act. ECF No. 187. On February, 12, 2020, defendant responded by
stating he disagreed with the Federal Public Defender, and requested the Federal Public
Defender file a motion to withdraw as his counsel because defendant wished to proceed
pro se. Id. On February 24, 2020, the Federal Public Defender withdrew as defendant’s
counsel. ECF No. 188.
The First Step Act grants courts the discretion to reduce the sentence of a
defendant who was convicted of an offense modified by the Fair Sentencing Act of 2010,
Pub. L. No. 111-220; 124 Stat. 2372 (2010), where such sentence was not previously
imposed or previously reduced in accordance with the amendments made by sections 2
and 3 of the Fair Sentencing Act of 2010. Defendant is not eligible for consideration
1

2:09-cr-00987-DCN

Date Filed 04/02/20

Entry Number 189

Page 2 of 2

based upon the First Step Act because his original sentence was previously reduced in
accordance with the amendments made by sections 2 and 3 of the Fair Sentencing Act.
ECFNo. 131.
Defendant’s motion is, therefore, DENIED.
AND IT IS SO ORDERED.

DAVID C. NORTON
UNITED STATES DISTRICT JUDGE

April 2, 2020
Charleston, South Carolina

2

